OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/GUINEA’S
HIV/AIDS AND FISTULA CARE
ACTIVITIES


AUDIT REPORT NO. 7-675-11-010-P
SEPTEMBER 8, 2011




DAKAR, SENEGAL

Office of Inspector General



September 8, 2011

MEMORANDUM

TO:      	         USAID/Guinea Mission Director, Nancy Estes

FROM: 	            Acting Regional Inspector General/Dakar, Van Nguyen /s/

SUBJECT:	          Audit of USAID/Guinea’s HIV/AIDS and Fistula Care Activities
                   (Report Number 7-675-11-010-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft and have included your comments in Appendix II.

The report includes ten recommendations. On the basis of actions taken by the mission and
supporting documentation provided, we determined that final action has been taken on
Recommendations 1, 2, 7, and 9 and that management decisions have been reached on
Recommendations 3, 4, 5, 6, 8, and 10. Please provide the Audit Performance and Compliance
Division in the USAID Office of the Chief Financial Officer with the necessary documentation to
achieve final action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov/oig
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings................................................................................................................. 5 


     Some Reported Results Were Not Verifiable.............................................................. 5 


     Faisons Ensemble’s Short-Term Agreements 

     Impeded Sustainability ................................................................................................ 6 


     USAID/Guinea’s Supervision Was Weak .................................................................... 8 


     USAID/Guinea Did Not Consistently 

     Adhere to Branding and Marking Requirements ....................................................... 11 


Evaluation of Management Comments....................................................................... 14 


Appendix I—Scope and Methodology ........................................................................ 16 


Appendix II—Management Comments ....................................................................... 18





Abbreviations

The following abbreviations appear in this report:

ADS       Automated Directives System
FY        fiscal year
M&E       monitoring and evaluation
NGO       nongovernmental organization
PMP       performance management plan
SUMMARY OF RESULTS

Guinea is one of the poorest countries in the world, and its people are among the most ill
served. A recent evaluation1 of USAID/Guinea’s programs reported that the Government of
Guinea failed to deliver effective public goods and essential social services to the Guinean
public. The USAID 2005 Fragile State Assessment confirmed that Guinea was not only a
“fragile state,” but it was well on the road to becoming a “failed state” because of corrupt leaders
who had little regard for their people.2




    Source: USAID


As a result, in 2006 USAID formulated a new strategy for Guinea, focusing its aid program on
advancing democratic governance and improving service delivery in health care, education, and
agriculture. This focus led to the development of the multisectoral project known as Faisons
1
   The evaluation was conducted in March 2011 by a team led by an independent consultant and
composed of USAID employees, including health specialists. The evaluation report was submitted to
USAID/Guinea in May 2011.
2
  “USAID Foreign Aid: Meeting the Challenges of the Twenty-first Century,” January 2004, defines “fragile
states” as including countries on a downward spiral toward crisis and chaos, countries that are recovering
from conflict and crisis, and countries that are essentially failed states. The challenge for these countries is
to strengthen institutions, basic governance, and stability. Fragile states include failing, failed, and
recovering states. Failed states are those in which the central government does not exert effective control
over, and is unable or unwilling to assure provision of vital services to, significant parts of its own territory.



                                                                                                                1
Ensemble (“Working Together”). The cooperative agreement was awarded to RTI International
in March 2007. The agreement was modified in March 2010 to extend its end date from
March 31, 2010, to September 30, 2011, and increase the budget from $22.9 million to $31.9
million.

This audit examined the health portion of Faisons Ensemble, with emphasis on its HIV/AIDS
activities. Some of the many health-related activities included providing technical assistance,
training, and equipment to about 30 voluntary counseling and testing centers to improve health
care in targeted communities; strengthening awareness of HIV/AIDs prevention and
stigmatization; and training and supporting five nongovernmental organizations (NGOs) working
in health and their peer educators in communicating behavior change. Out of a total budget of
$31.9 million, $14.2 million can be attributed to health. During fiscal years (FYs) 2009 and
2010, USAID/Guinea obligated and expended $7.2 million and $13.3 million, respectively, for
health. Of these amounts, $7.2 million and $3.8 million were specifically for HIV/AIDs.

This audit also included a review of the 5-year Fistula Care Project implemented by
EngenderHealth from September 25, 2007, to September 24, 2012, through a $5 million
cooperative agreement. During FYs 2009 and 2010, USAID/Guinea obligated and expended
$3.0 million and $2.9 million, respectively, for fistula activities. The Fistula Care Project works to
prevent fistula3 from occurring, treats and cares for women with fistula, and assists in their
rehabilitation and reintegration. Work in Guinea is part of a worldwide, $70 million, centrally
funded project managed from USAID/Washington.

The objective of the audit was to determine whether USAID/Guinea’s health activities were
achieving their goals of preventing and treating HIV/AIDS and fistula.

The audit determined that USAID/Guinea’s HIV/AIDS and fistula activities partially achieved
their goals. Faisons Ensemble reportedly reached 246,580 people with community outreach
that promoted HIV/AIDS prevention in FY 2009, exceeding its target of 175,000. The project
also reported providing HIV counseling, testing, and test results to 52,236 people, far exceeding
its target of 16,000. Although the program did not report on the number of people reached with
community outreach in FY 2010, it indicated that it had provided 69,324 of 70,000 targeted
people with test results from HIV counseling and testing sessions. The audit found that
although the Faisons Ensemble team was able to support most of the reported results, some
data to support achievements for the number of people reached or tested were not readily
available for the audit. Nevertheless, an evaluation conducted in March 2011 by a team
composed of an independent consultant and USAID employees found that “the HIV Voluntary
Counseling and Testing program stands out for having achieved good technical results while
making important linkages to improving governance in the health centers and in connecting to
the community.”

Regarding the Fistula Care Project, the audit determined that USAID partially achieved its goals
of preventing and treating fistula. Although actual results for the number of people trained in
FYs 2009 and 2010 and the number of fistula surgeries provided in FY 2009 were lower than

3
  The United Nations Population Fund defines an obstetric fistula as “a hole in the birth canal caused by
prolonged labor without prompt medical intervention, usually a Caesarean section. The woman is left with
chronic incontinence and, in most cases, a stillborn baby. . . . Left untreated, fistula can lead to chronic
medical problems, including ulcerations, kidney disease, and nerve damage in the legs.” (UNFPA’s
“Campaign to End Fistula” Web site, <http://www.endfistula.com/fistula_brief.htm>, accessed on July 19,
2011).


                                                                                                          2
expected, our visits to the fistula sites and interviews with beneficiaries confirmed the positive
impact of USAID/Guinea’s fistula activities among the people in Guinea. For example, to
prevent and treat fistula, the implementing partner planned to train 487 people but trained only
222 in FY 2009. Likewise, for FY 2010, the partner planned to train 788 people but trained only
156. For the treatment of fistula, USAID/Guinea reported in its FY 2009 operational plan a goal
of treating 3,000 women throughout the 5-year project, but as of March 2011 (with only 18
months remaining in the program), only 1,699 repair surgeries had taken place. Furthermore,
EngenderHealth reported that, of the 720 women in FY 2009 and 622 women in FY 2010
requiring surgery, only 316 (44 percent) in FY 2009 and 392 (63 percent) in 2010 received the
surgery. Combined, the results for those 2 years show that almost half of the women with fistula
did not receive the needed surgery. However, these goals were based on benchmarks
established by the implementing partner; targets for Guinea were not finalized because the
USAID agreement is a multicountry agreement that did not include any country-specific targets.
Neither the mission nor the implementing partner could explain how the goal of treating 3,000
women was established. The political situation in 2009 and 2010 was cited as the reason for
the lower-than-expected results.4

The audit team identified the following areas for improvement:

	   Some reported results were not verifiable (page 5).

	   Faisons Ensemble’s use of short-term agreements impeded sustainability (page 6).

	   USAID/Guinea’s supervision was weak (page 8).

	   USAID/Guinea did not consistently adhere to branding and marking requirements
     (page 11).

The report recommends that USAID/Guinea:

1. 	 Direct EngenderHealth to develop procedures to verify data collected at the supported
     sites (page 6).

2. 	 Direct EngenderHealth to establish a timetable to conduct periodic visits to collect the
     data prepared at the supported sites (page 6).

3. 	Require RTI International to improve its monitoring and evaluation process to ensure
    that reported results are verifiable (page 6).

4. 	 Establish a plan for upcoming health activities that focuses on building the capacity of
     local institutions and improving their prospects for sustainability (page 7).

5. 	 Establish an updated performance management plan (page 10).



4
  In 2008, a military coup occurred in Guinea, and the U.S. Government suspended assistance there,
except for humanitarian assistance and efforts to promote democracy. Throughout 2009, the military junta
became progressively more despotic and corrupt. Political tensions intensified, and in September 2009,
some 150 people were reportedly killed by the junta and about 100 women publicly raped during a
peaceful demonstration. Following this massacre, most USAID personnel were evacuated for 6 months.


                                                                                                      3
6. 	 Direct EngenderHealth to establish and update Guinea-specific fistula care targets for
     each indicator (page 11).

7. 	 Develop a plan for conducting site visits in accordance with its mission order (page 11).

8. 	 Conduct an evaluation of the Fistula Care Project (page 11).

9. 	 Approve a branding and marking plan for Faisons Ensemble (page 12).

10. Establish a plan to verify that USAID-funded assets are marked in accordance with the
    Fistula Care Project’s branding and marking plan (page 13).

Detailed findings appear in the following section. Our evaluation of management comments
begins on page 14. The audit’s scope and methodology are described in Appendix I, and
USAID/Guinea’s written comments are included as Appendix II.




                                                                                                 4
AUDIT FINDINGS 

Some Reported Results Were Not
Verifiable
To measure performance effectively and make informed management decisions, missions must
ensure that quality data are collected and made available. USAID provides its assistance
objective teams with extensive guidance to help them manage for improved results. Among this
guidance is Automated Directives System (ADS) 203.3.5.2, which states that the USAID
Mission/Office and Assistance Objectives Teams should be aware of the strengths and
weaknesses of their data and the extent to which the data’s integrity can be trusted to influence
management decisions. According to ADS 203.3.5.1, “Data Quality Standards,” performance
data should meet data quality standards for validity, integrity, precision, reliability, and
timeliness.

Fistula Care Project. Our site visits confirmed that most of the data reported by
EngenderHealth were supported. However, the audit found some discrepancies between the
figures reported by EngenderHealth and the support maintained at project sites in Kissidougou
and Faranah (shown in the map on page 1). For example, some discrepancies with records
kept at the Faranah District Hospital are shown below.

             Discrepancies Between EngenderHealth’s Reported Results and 

                       Records Kept at Faranah District Hospital 


                                                                   Hospital
               Indicator                   Reported Result                         Difference
                                                                   Record
Family planning acceptors                         200               209                   9
Number of clients counseled about
                                                  453                434                 19
family planning methods
Number of deliveries                              600                513                 87

These discrepancies occurred because the reports prepared at the sites were not reviewed and
approved before staff transmitted them to EngenderHealth in Conakry. In addition, the data
from the sites were often transmitted by phone, increasing the potential for errors. Finally,
EngenderHealth was not performing regular site visits to review data collected by the supported
sites.

Faisons Ensemble. Although RTI International, the lead implementing partner for the Faisons
Ensemble Project, was able to support most of the reported results on HIV/AIDS activities,
some data for the indicators regarding people reached or tested were not readily available. A
USAID team performing a data quality assessment on April 6, 2011, similarly reported that “it is
not clear how information is gathered,” “some of the data reported matched while other [data]
did not match,” and “the program needs to strengthen their monitoring system to ensure that
data reported is correct and accurate.” A financial review conducted in December 2010 found
that supporting documents were not provided and concluded that developing a filing plan would
improve the quality of quarterly reports.




                                                                                                5
For some of the reported results, Faisons Ensemble relies on many different NGOs, voluntary
counseling and testing centers, and community-based organizations in four of Guinea’s eight
regions. These partner organizations typically retain the supporting details and report
summarized results monthly to Faisons Ensemble’s monitoring and evaluation (M&E) team.
However, the M&E team did not always have monthly reports from all the reporting sources.
For example, Faisons Ensemble could not locate an NGO’s July 2009 report, which was needed
to support the indicator Number of people reached. Although some records were available at
each site and supervision was provided, supporting details retained by the partners were
incomplete or inadequate in some cases. The March 2011 evaluation recommended that
Faisons Ensemble “enhance its system of monitoring and evaluation through the work of its
regional offices and partners to produce common methods of data collection which more fully
capture the impact of its activities and the quality of the inputs.” Faisons Ensemble has
acknowledged a need to improve data reporting, adding that it has had difficulty with gathering
accurate monthly data. To improve data collection and reporting, it hired an M&E specialist in
January 2011.

These problems with documentation can be attributed partly to USAID/Guinea’s heavy reliance
on its partners for the accuracy of data reported in quarterly reports. Also, data verification
during site visits is limited because of the difficulty in reaching most program sites: three of the
four targeted regions require car trips of more than 8 hours. Only the Conakry Region activities
are readily accessible to USAID and partner staff based in Conakry.

Reporting inaccurate results can undermine USAID’s credibility and impair USAID’s ability to
obtain the resources it needs to do its work. USAID relies on accurate data to demonstrate
progress toward goals and to make performance-based decisions.              To ensure that
USAID/Guinea reports accurate and reliable data and to improve the integrity of the reporting
process, we make the following recommendations.

   Recommendation 1. We recommend that USAID/Guinea direct EngenderHealth to
   develop procedures to verify data collected at the supported sites.

   Recommendation 2. We recommend that USAID/Guinea direct EngenderHealth to
   establish a timetable to conduct periodic site visits to collect the data prepared at the
   supported sites.

   Recommendation 3. We recommend that USAID/Guinea require RTI International to
   improve its monitoring and evaluation process to ensure that reported results are
   verifiable.

Faisons Ensemble’s Short-Term
Agreements Impeded Sustainability

USAID has developed nine principles of development and reconstruction assistance. Under the
area of capacity building, USAID aims to “strengthen local institutions, transfer technical skills,
and promote appropriate policies.” Under sustainability, it aims to “design programs to ensure
their impact endures.” The Agency’s policy guidance on Mitigating the Development Impacts of
HIV/AIDS adds that USAID must “demonstrate how successful mitigation programs can be
achieved and build capacity to sustain the efforts.” It should “strengthen country capacity to
improve development program performance and thereby reinforce the global effort to combat
the spread of HIV/AIDS.”


                                                                                                  6
The February 2011 portfolio review of Faisons Ensemble listed sustaining partnerships with
subpartners as one of the three major constraints affecting project implementation. Although
officials from all four health NGOs visited explained that they were very pleased with the impact
they were making on the targeted groups, many expressed concerns about the sustainability of
their NGOs. They added that sustainability was being hampered by high staff turnover,
particularly among peer educators. Finally, they expressed great concern about their future job
prospects given the poor economic situation and the high level of unemployment in Guinea.

Sustainability was hampered because USAID funding was not provided on a continuous, long-
term basis. The NGOs had subagreements with Faisons Ensemble from March 1, 2008, to
February 28, 2010, but this period included extensions. After a lengthy gap of about 1 year,
they were given a very short time to continue their work, from February to July 2011.

Faisons Ensemble was unable to provide continuous, long-term funding to the NGOs because
its own funding from USAID was uncertain as a result of political instability. Rather than being
established under a single, 5.5-year contract, the project received three extensions, preventing
it from entering into long-term agreements with subpartners at the outset. In addition, during the
first phase of the project, World Education managed grants, but during the second phase, RTI
International, the lead implementing partner, decided to carry out this role. Another reason for
the lack of continuous funding was that USAID decided to change its approach by using fixed-
obligation grants. These changes required the recruitment and training of new personnel, who
needed time to understand and award the new type of grant.

The high staff turnover that these NGOs experienced because of a lengthy gap in funding
hampered the program’s effectiveness and made it necessary for the project to train new team
members. Some of the knowledge and skills initially obtained by NGO personnel have been
lost or forgotten. Although they may continue some activities, without any financial support,
project oversight, or reporting requirements, the NGOs’ attempts to continue this work will not
be as effective as they otherwise might have been.

Faisons Ensemble also worked with many other types of groups, clubs, associations,
committees, and organizations. All of these entities and their staff would have benefited from
longer-lasting, continuous partnerships as well.

The March 2011 evaluation recommended that the project “continue to build up the
management capacity of its local NGO implementing partners.” Although the project is
scheduled to end on September 30, 2011, we are making a similar recommendation to ensure
that follow-on health activities do not encounter the same challenges described above.

   Recommendation 4. We recommend that USAID/Guinea establish a plan for upcoming
   health activities that focuses on building the capacity of local institutions and improving
   their prospects for sustainability.




                                                                                                 7
USAID/Guinea’s Supervision Was
Weak
ADS Chapter 200, “Introduction to Programming Policy,” describes USAID’s procedures and
methods for planning, achieving, assessing, and learning from its programs. USAID/Guinea did
not comply with all sections of this guidance. For example, the mission has not updated its
performance management plan, has not established targets for its fistula activities, has not
conducted regular site visits, has not performed timely evaluations, and has not conducted
required portfolio reviews. These weaknesses are discussed below.

Performance Management Plans. ADS Chapter 203, "Assessing and Learning," provides
guidance to USAID missions on determining how well activities are achieving their intended
results. According to 203.3.3, each assistance objective team must prepare a complete
performance management plan (PMP) for each assistance objective, or program area, it is
responsible for and include all indicators that will be used to assess progress over the life of the
program. ADS 203.3.2.2.b explains that USAID “should use performance information to assess
progress in achieving results and to make management decisions on improving performance.”
USAID/Guinea has also published Mission Order 203, which lays out the M&E systems and
provides the tools to be used for program monitoring, evaluation, and reporting.

However, the mission does not have an operational PMP. The last mission PMP was dated
April 2008 and has not been updated since, even as activities and performance indicators have
changed. The lack of an updated PMP stemmed from political turmoil and instability, staffing
constraints, and the evacuation of key staff in 2009.

Without a current PMP, USAID/Guinea has lacked a critical tool for planning, managing, and
documenting data collection. The PMP contributes to the effectiveness of the performance
monitoring system by ensuring that comparable data are collected regularly and on schedule.
Without that assurance, performance monitoring and performance-based management are
flawed.

For example, the audit team noted that whereas Faisons Ensemble reported results for certain
indicators in FY 2010, USAID reported results for different indicators in its FY 2010 Performance
Plan and Report. The mission is aware of this weakness and intends to establish a new PMP
this year.

Similarly, the mission did not update the M&E plan for Faisons Ensemble in a timely manner.
Because of substantial changes to the program, the modification on March 2010 required a
revised plan. However, it took nearly a year for USAID/Guinea to reach an agreement with its
partner on the indicators and targets and approve this revised plan.

Targets. ADS 203.3.4.5 states that targets should be “ambitious, but achievable given USAID
(and other donor) inputs. . . . On the other hand, targets that are set too low are also not useful
for management and reporting purposes.”

As described earlier, USAID and EngenderHealth did not have clearly established targets for
the indicators listed in Guinea’s Fistula Care Project. The USAID agreement was a multicountry
agreement and did not include any country-specific targets. The operational plans in FYs 2009
and 2010 referred to a 5-year total target of 3,000 fistula repairs. As previously explained, with
only 18 months remaining in the project, the mission was far from achieving this goal. Although



                                                                                                  8
it agreed that this target is unrealistically optimistic, the mission has not revised it in the last 5
years. EngenderHealth stated that targets for FYs 2009 and 2010 were included in the
narrative section of its annual reports for FYs 2010 and 2011. However, some key targets for
the indicators reported by EngenderHealth were absent. Without targets, stakeholders are
unable to evaluate the effectiveness of the project.

Site Visits. The mission order states: “Site visits are indispensable for effective tracking of
activities and full awareness of what is going on in the field. For all activities of $500,000
[lasting] one year or more, the Program Office recommends that site visits occur at least
quarterly.” In addition to providing instructions and a standard report format for site visits, the
mission order assigns responsibility to the mission’s staff to monitor activities not managed in-
country (e.g., the centrally funded Fistula Care Project, which is managed from Washington).

The mission did not conduct quarterly site visits and documented only two visits during
FYs 2009 and 2010; the standard format was not used for either visit.

Because Faisons Ensemble is a complex, multisectoral award with activities in democracy,
governance, education, agriculture, and natural resources management, it merits enhanced
monitoring by the mission. Yet, for fistula activities, the mission had difficulty identifying the
Washington-based agreement officer’s technical representative in charge of the Fistula Care
Project, indicating a clear lack of communication.

Without active monitoring through regular site visits, the mission did not have reasonable
assurance that data used for performance-based decision making and reporting were accurate
and reliable. An active M&E program with regular site visits for monitoring project progress
would prevent problems with data quality and program management. The mission fully
recognizes the importance of site visits but was prevented from conducting them by the
unstable political climate and a shortage of staff.

Evaluations. USAID/Guinea’s mission order adds that strategic objective teams must develop
an annual evaluation plan for each fiscal year. Although an evaluation plan was developed in
April 2011, the mission did not have one for the prior 3 years.

The USAID Evaluation Policy (January 2011) requires each operating unit “to conduct at least
one performance evaluation of each large project it implements.” “The performance evaluation
must be timed so that the findings will be available as decisions are made about new strategies,
project designs and procurements. This will often mean, for example, that the evaluation will be
designed and commissioned 18 months or more before the planned conclusion of the project.”

Even with the modification to the Faisons Ensemble award in March 2010 that extended the
agreement for 18 months and added $9 million, the mission took more than a year to complete an
evaluation. Similarly, the midterm evaluation for the 5-year Fistula Care Project was planned for
June 9 through July 3, 2011, even though the project was approaching the end of its fourth year.
The Fistula Care agreement required a midterm evaluation of the project by the second or third
year. Evaluations are useful because they measure project effectiveness, relevance, and
efficiency and provide learning opportunities to improve performance; not conducting timely
evaluations deprives managers of useful information.

Portfolio Reviews. ADS 203.3.7 states: “USAID Missions/Offices must conduct at least one
Portfolio Review each year that covers all activities included in their various programs.” The
guidance explains that a “Portfolio Review examines strategic and operational issues and


                                                                                                    9
determines whether USAID-supported activities are leading to the results outlined in the
approved Results Portfolio.”

Portfolio reviews were not performed annually. After a 4-year gap, the mission finally conducted
a portfolio review in February 2011.

The underlying cause for the issues described above was Guinea’s political crisis. The State
Department’s Background Note on Guinea describes the events as follows:

       Captain Moussa Dadis Camara seized power on December 23, 2008, declaring
       himself President of the Republic and suspending the constitution, but promising
       elections and an eventual restoration of civilian authority. . . . In response,
       Guinea’s opposition coalition, Les Forces Vives, organized a protest on
       September 28, 2009, which attracted tens of thousands of protesters to the
       national stadium in Conakry. The Guinean military responded by opening fire on
       the crowd, killing at least 157 protesters, wounding more than a 1,000 others,
       and sexually assaulting more than 100 women, triggering widespread
       condemnation from the international community and increasing isolation for the
       junta.

The U.S. Embassy responded to the massacre by evacuating nonemergency personnel. From
October 1, 2009, to March 29, 2010, USAID/Guinea was instructed to discontinue support to the
national government, although the mission was still allowed to work with employees of the
national government at the local level. During this period, key USAID and partner staff were
absent for weeks or months at a time. Many activities stopped completely or were implemented
on a reduced scale, and the Regional Security Office prohibited site visits. Activities focusing on
national policy or system changes, such as strengthening the public pharmacy system, were
placed on hold, and activities that continued were monitored for security and viability.

Another primary cause for the lack of program oversight was staffing shortages. Since 2008, no
permanent U.S. direct-hire health specialist has worked at the mission. Oversight for the fistula
project and other elements of the health portfolio was particularly weak after the departure of a
Guinean health specialist in June 2009. Following his departure, another health specialist with
no prior USAID experience worked at the mission for about 1 year; the 6-month evacuation
caused further staff shortages and prevented her from being properly mentored. Following her
departure, the mission’s education specialist was assigned to oversee all health activities from
September 2010 to February 2011, despite having limited experience and interest in health. He
was subsequently relieved by a visiting health specialist, and the mission hired a health program
assistant on March 27, 2011. Because an advertisement for a more experienced U.S. direct-
hire health officer did not yield results, the mission expected to fill the gap with another short-
term health officer. The newly hired health program assistant also intends to leave, a fact that
will worsen the situation.

The absence of staff clearly affects both the quantity and quality of USAID supervision. USAID
requirements to develop performance indicators and targets, perform site visits, develop
strategic plans, and conduct evaluations and portfolio reviews are all designed to assist
USAID/Guinea in monitoring and evaluating its activities. Not meeting these requirements
increases the risk of fraud, waste, and abuse of USAID resources.

   Recommendation 5. We recommend that USAID/Guinea establish an updated
   performance management plan.


                                                                                                10
   Recommendation 6. We recommend that USAID/Guinea direct EngenderHealth to
   establish and update Guinea-specific fistula care targets for each indicator.

   Recommendation 7. We recommend that USAID/Guinea develop a plan for conducting
   site visits in accordance with its mission order.

   Recommendation 8. We recommend that USAID/Guinea conduct an evaluation of the
   Fistula Care Project.

USAID/Guinea Did Not
Consistently Adhere to Branding
and Marking Requirements
Title 22, Code of Federal Regulations, Part 226.91, states that equipment, supplies, and other
materials funded by USAID must be marked with the USAID identity. “In cases where the
Marking Plan has not been complied with, the Agreement Officer will initiate corrective action.”
The Foreign Assistance Act and USAID’s ADS Chapter 320 provide further requirements for the
branding and marking of USAID activities.

The award for the Fistula Care Project included a branding strategy and marking plan, as did
the Faisons Ensemble proposal. Among other items, these documents specified that equipment
should be marked with stickers containing the USAID identity. The fistula plan specifically
stated that office and medical equipment such as fistula tables and surgical instruments should
be marked. However, the Faisons Ensemble award referred only to standard branding and
marking requirements, and the proposed branding and marking plan has not been approved or
included as part of the award.

Although banners, posters, brochures, and vehicles were marked (as shown in the picture on
the following page), other fixed assets listed below that were purchased with USAID funds had
not been marked with the USAID identity. Instead they were either unmarked or had an
EngenderHealth or RTI International sticker. USAID-funded assets at the partners’ offices
include items such as air-conditioners, computers, and office furniture. Faisons Ensemble
funded motorcycles, generators, incinerators, TVs, DVD players, and furniture for the voluntary
counseling and testing units. The Fistula Care Project provided medical equipment to selected
hospitals.

Furthermore, although key partner staff recognized USAID as the donor of these projects, some
others did not. Eight out of ten USAID beneficiaries of peer counseling sessions did not
acknowledge USAID or the American people as the donor. Similarly, none of the 17 women
with fistula that auditors interviewed knew that the fistula program was funded by USAID.




                                                                                             11
   This display board shows patients in Faranah the price of each health service offered,
   from consultations to lab work. (Photo by RIG/Dakar, May 2011)

Faisons Ensemble and EngenderHealth staff members were generally aware of requirements to
mark program materials such as marketing brochures, but were unaware of the requirement to
mark fixed assets. They explained that no guidance on branding and marking was provided by
USAID and that USAID stickers were not provided. When the auditors brought this requirement
to the attention of Faisons Ensemble officials, they responded immediately by printing stickers
and began distributing them during our site visits, even before consulting with USAID/Guinea.
However, Faisons Ensemble should consult with the mission to ensure that the assets are
marked in accordance with USAID’s branding and marking policies.

USAID’s Web site states:

       [S]ince 9/11, America’s foreign assistance programs have been more fully
       integrated into the United States’ National Security Strategy. This elevation to the
       so-called ‘third-D’ (development being added to diplomacy and defense)
       increased the need for U.S. foreign assistance activities to be more fully
       identified in the host country as being provided ‘from the American People.’ We
       have been identified as ‘America's good-news story’ and have been tasked to
       make our efforts more visible and better known in the countries where we work.

When program beneficiaries do not recognize the source of the program’s funding, one of the
most important goals of U.S. foreign assistance is not achieved. These two programs are
expected to receive funding in Guinea of nearly $37 million, yet they are not receiving sufficient
recognition from beneficiaries in Guinea.

   Recommendation 9. We recommend that USAID/Guinea approve a branding and
   marking plan for Faisons Ensemble.




                                                                                               12
Recommendation 10. We recommend that USAID/Guinea establish a plan to verify
that USAID-funded assets are marked in accordance with the Fistula Care Project’s
branding and marking plan.




                                                                                    13
EVALUATION OF MANAGEMENT
COMMENTS
USAID agreed with all ten recommendations in the draft report. Having reviewed the actions
taken by the mission and the supporting documentation provided, we have determined that final
action has been taken on Recommendations 1, 2, 7, and 9, and management decisions have
been reached on Recommendations 3, 4, 5, 6, 8, and 10. Our evaluation of management
comments is shown below.

Recommendation 1. The mission agreed with this recommendation and directed
EngenderHealth to develop procedures to verify the data collected at the supported
sites. EngenderHealth provided (and we reviewed) a comprehensive plan to address data
collection and verification. These actions constitute final action on this recommendation.

Recommendation 2. The mission agreed with this recommendation, and EngenderHealth
established (and we reviewed) a timetable to conduct periodic site visits to collect the data
prepared at supported sites. This action constitutes final action on this recommendation.

Recommendation 3: The mission agreed with this recommendation and instructed RTI
International to improve its monitoring and evaluation process to ensure that reported results
are verifiable. The target date for completion of this action is December 31, 2011. Accordingly,
a management decision has been reached on this recommendation.

Recommendation 4. The mission agreed with this recommendation and indicated that it has
been working on a plan to build local institutions’ capacity to improve their prospects for
sustainability. Specifically, it has designed a mechanism that will allow it to make small grants
directly to local indigenous organizations, supporting institutional development when necessary,
and has allocated $1 million for this initiative. The mission also directed RTI International to
develop a capacity-building plan for the local institutions with which it works. The target date for
completion of this action is December 31, 2011. Accordingly, a management decision has been
reached on this recommendation.

Recommendation 5. The mission agreed with this recommendation and planned to update its
PMP by September 30, 2011. Accordingly, a management decision has been reached on this
recommendation.

Recommendation 6. The mission agreed with this recommendation and instructed
EngenderHealth to establish and update Guinea-specific fistula care targets for each indicator.
EngenderHealth will prepare a benchmark plan for Guinea for FYs 2011 and 2012 and will
begin submitting quarterly reports on progress toward benchmarks by December 31, 2011.
Accordingly, a management decision has been reached on this recommendation.

Recommendation 7. The mission agreed with this recommendation and developed (and we
reviewed) a schedule of site visits to each of its major projects that will take place before the
end of the year. This action constitutes final action on this recommendation.




                                                                                                14
Recommendation 8. The mission agreed with this recommendation and reported that
USAID/Washington and EngenderHealth both recently conducted full evaluations of the Guinea
component of the Fistula Care Project. The mission expects the final evaluation reports by
December 31, 2011. Accordingly, a management decision has been reached on this
recommendation.

Recommendation 9. The mission agreed with this recommendation and noted that it had
approved Faisons Ensemble’s branding and marking plan. The mission instructed Faisons
Ensemble to comply fully with this approved plan and will soon perform a full site inspection as
part of its site visit plan. These actions constitute final action on this recommendation.

Recommendation 10. The mission agreed with this recommendation and indicated that
mission officials plan to visit EngenderHealth’s project sites in the near future to monitor
compliance with the branding and marking plan.              Further, the mission instructed
EngenderHealth to develop a plan of its own to verify that USAID-funded assets are marked in
accordance with the Fistula Care Project’s branding and marking plan by December 31, 2011.
Accordingly, a management decision has been reached on this recommendation.




                                                                                             15
                                                                                            Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Dakar conducted this performance audit in accordance with
generally accepted government auditing standards.5 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe that the evidence
obtained provides that reasonable basis. The objective of the audit was to determine whether
USAID/Guinea’s health activities were achieving their main goals of preventing and treating
HIV/AIDS and fistula.

In planning and performing the audit, the audit team assessed management controls related to
management review, proper execution of transactions and events, and performance targets and
indicators. Specifically, we reviewed and evaluated the following:

     Country operational plans for FYs 2009 and 2010
     Performance Plans and Reports for FYs 2009 and 2010
     Certification required under the Federal Managers’ Financial Integrity Act of 19826
     Portfolio review sheets
     Implementing partner agreements and modifications
     Reported results
     Data quality assessments
     Financial reports
     Faisons Ensemble evaluation report of March 2011
     Financial review reports

We interviewed key USAID/Guinea personnel, implementing partner staff, beneficiaries, and
Guinean health officials. We conducted the audit at USAID/Guinea and at the activity sites of
implementing partners in two of Guinea’s eight regions (Conakry and Faranah). Audit fieldwork
was conducted in Guinea from April 26 to May 6, 2011, and covered HIV/AIDS and fistula care
activities that took place in FYs 2009 and 2010. We audited USAID/Guinea’s Faisons
Ensemble Project led by RTI International, with emphasis on HIV/AIDS activities. We also
audited EngenderHealth’s Fistula Care Project, a centrally funded project primarily managed by
USAID/Washington.

For FYs 2009 and 2010, USAID/Guinea’s obligations and expenditures for the HIV/AIDS and
fistula activities audited totaled $10.2 million and $16.3 million, respectively.

Methodology
To answer the audit objective, we reviewed activities implemented by the two projects. We also
reviewed available agreements, progress reports, and work plans of these implementing
partners. We reviewed applicable laws and regulations and USAID policies and procedures
pertaining to USAID/Guinea’s HIV/AIDS program, including the mission’s certification required

5
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).
6
    Public Law 97-225, as codified in 31 U.S.C. 3512.


                                                                                                  16
                                                                                      Appendix I


by the Federal Managers’ Financial Integrity Act of 1982 and ADS Chapters 201, 202, and 203.
We interviewed mission and partner technical staff at USAID/Guinea, as well as at the Conakry
offices of Faisons Ensemble and EngenderHealth. We also visited the Faisons Ensemble field
office in Dabola to interview program and M&E staff and to review supporting documentation for
the results reported on the indicators. Additionally, we interviewed staff and reviewed
supporting documentation at subpartner locations, including four hospitals providing fistula care
and four voluntary counseling and testing centers. We conducted these interviews,
documentation reviews, and site visits to determine how activities were being implemented, how
this implementation was being documented, and whether reported results were accurate.

During these site visits, we observed activities in progress, interviewed individuals who were
conducting the activities, and interviewed program beneficiaries to obtain their feedback.
Because of the large number of activities and the extensive geographical dispersion of the sites,
a statistical sample was not possible. Therefore, we selected a judgmental sample of activities;
the results of the judgmental sample cannot be projected to the universe of all activities on a
statistical basis. However, we believe that our work provides a reasonable basis for our
conclusions because the sample consisted of sites that (1) were located in Faranah and
Conakry Regions, where both audited programs were being implemented, (2) included a
representative sample of the wide variety of activities being implemented, and (3) involved
HIV/AIDS subpartners.




                                                                                              17
                                                                                    Appendix II




MANAGEMENT COMMENTS 



                                   MEMORANDUM

Date:          August 23, 2011

TO:            Regional Inspector General, Dakar, Gerard Custer

FROM:          USAID/Guinea A/Mission Director, Robert W. Hanchett

SUBJECT:       Audit of USAID/Guinea’s HIV/AIDS and Fistula Care Activities
               (Report Number 7-675-11-00X-P)


The following is USAID/Guinea’s response to subject audit report. Please acknowledge receipt
of our response to this audit and advise of any additional actions that USAID/Guinea needs to
undertake at this time:

We agree with all of the recommendations and are submitting an action plan below to address the
recommendations.

Action Plan:

Recommendation One – Addressed with a letter to Engenderhealth dated 07/28/2011. (copy
attached) Their response is attached and we find it satisfactory.

Recommendation Two – Addressed with a letter to Engenderhealth dated 07/28/2011 (copy
attached). Their response is attached and we find it satisfactory.

Recommendation Three – Addressed with letter to Faisons Ensemble dated (copy attached).
We are currently awaiting a response that was requested by September 5, 2011.

Recommendation Four – USAID/Guinea is fully in agreement with this recommendation and
has already been actively designing a new small grants mechanism that will allow it to
expeditiously make small grants directly to local indigenous organizations including support for
institutional development when necessary. Funding in the amount of $1 million has been


                                                                                            18
                                                                                       Appendix II

allocated to this new initiative. We have also addressed this recommendation with a letter to
Faisons Ensemble dated August 10, 2011 (copy attached) and expect their response by
September 5, 2011.

Recommendation Five – USAID/Guinea agrees with this recommendation and is planning to
update its Performance Management Plan (PMP) in September 2011.

Recommendation Six –Addressed with a letter to Engenderhealth dated July 28, 2011 (copy
attached). Their response is attached and they have agreed to the recommendation.

Recommendation Seven – USAID has developed a schedule of site visits to each of its major
projects that will take place before the end of the year. The current planned site visit schedule is
attached and will be updated regularly.

Recommendation Eight – USAID/Washington and Engenderhealth have both recently
conducted full evaluations of the Guinea component of Fistula Care Project. The final
evaluation reports are expected in September and December respectively and we will make them
available to RIG/Dakar.

Recommendation Nine – An approved Marking and Branding Plan is already in place with
Faisons Ensemble (see attached). We have requested Faisons Ensemble to fully comply with
this approved plan in a letter dated August 10, 2011 (copy attached). We expect to perform a full
site inspection in the near future as part of our site visit plan.

Recommendation Ten – Addressed with a letter to Engenderhealth dated 07/28/2011 (copy
attached) We plan a site visit to Engenderhealth project sites in the near future to monitor
compliance with the approved Branding and Marking Plan.




                                                                                                 19
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
